In the

~upreme (!Court of tbe Wniteb ~tates
IN THE MATTER OF THE GUARDIANSHIP OF IDA M.
AN INCAPACIATED PERSON.
ANN MERLINO, Ph.D., DR. LINA MERLINO,
and GINO MERLINO,
-againstCARA BUONINCONTRI, ESQ.,

Petitioners,

Respondent.

CERTIFICATE OF COMPLIANCE
As Required by Rule 33.l(h)

I, Christine Pedro-Panuyas, certify that the above captioned case complies
with the word limitations of this Court, containing 2,135 words. The word limits
do not include the documents exempt by Rule 33.1 (d). The word-processing system
used to prepare the document was Microsoft Word.
I declare under penalty of perjury that this document contains an accurate
word count according to Microsoft Word Counter.
Dated: December 12, 2019

Lynne Batley

Notary Public. State of NY
No. 01 BA8311679
Quallfted In Richmond County
cammtalon &llplNI lefNffiblr 1 1 -

